No. 19-1039
In the

Supreme Court of the United States
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
STATE OF NEW JERSEY; NEW JERSEY
DEPARTMENT OF ENVIRONMENTAL
PROTECTION; NEW JERSEY STATE AGRICULTURE
DEVELOPMENT COMMITTEE; DELAWARE &
RARITAN CANAL COMMISSION; NEW JERSEY
WATER SUPPLY AUTHORITY; NEW JERSEY
DEPARTMENT OF TRANSPORTATION; NEW
JERSEY DEPARTMENT OF THE TREASURY; NEW
JERSEY MOTOR VEHICLE COMMISSION,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Third Circuit
BRIEF OF AMICUS CURIAE
MARCELLUS SHALE COALITION AND
Pennsylvania Independent Oil & Gas
Association in Support OF PETITIONER
Terry R. Bossert
Counsel of Record
General Counsel
Marcellus Shale Coalition
300 North Second Street,
Suite 1102
Harrisburg, Pennsylvania 17101
(717) 603-0714
tbossert@marcelluscoalition.org
Counsel for Amici Curiae Marcellus Shale Coalition and
Pennsylvania Independent Oil & Gas Association

Kevin Jon Moody
Pennsylvania Independent
Oil & Gas A ssociation
212 Locust Street,
Suite 300
Harrisburg, Pennsylvania 17101
(717) 234-8525

295164

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Third Circuit’s Decision Will Have a
Significant Negative Impact on the Upstream
Sector of the Natural Gas Industry  . . . . . . . . . . 3
The Third Circuit’s Decision Would
Make It Virtually Impossible to Build an
Interstate Pipeline Through Pennsylvania . . . . . 6
A Plain Reading of the Statute Indicates
That Congress Could Not Have Intended
the Result Reached by the Third Circuit . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF CITED AUTHORITIES
Page
Cases:
Columbia Gas Transmission, LLC v.
12 Acres of Land, More or Less,
No. 19-cv-01444 (D. Md. Aug. 22, 2019)  . . . . . . . . . . . 3
Commissioners v. Brown,
380 U.S. 563 (1965) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
In re PennEast Pipeline Co. LLC,
938 F.3d 96 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . . . 2, 3
Leaf v. Pennsylvania Co.,
112 A. 243 (PA 1920) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
PPL Montana v. Montana,
565 U.S. 576 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
United States v. Turkette,
452 U.S. 576 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Statutes and Other Authorities:
U.S. Const. Amend. XI  . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
15 U.S.C. § 717f(h) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .8
58 Pa. C.S. § 2302(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

iii
Cited Authorities
Page
Dr. Robert Bruno & Michael Cornfield, Study
of Construction Employment in Marcellus
Shale Related Oil and Gas Industry 2008-2014
University of Illinois, August 2014, https://
ler.illinois.edu/wp-content/uploads/2015/01/
Marcellusjobsstudy_FINAL.pdf . . . . . . . . . . . . . . . . 5
Shale Gas Development Beneath Publicly-Owned
Streambeds, https://www.dcnr.pa.gov/Business/
StreambedGasLeasing/Pages/default.aspx . . . . . . 7, 8
U.S. Bureau of Labor Statistics, Monthly Labor
Review: The Marcellus Shale gas boom in
Pennsylvania: employment and wage trends  . . . . . 6
U.S. Crude Oil and Natural Gas Proved Reserves,
Year-end 2018, https://www.eia.gov/naturalgas/
crudeoilreserves . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
USGS How Much Gas is in the Marcellus,
Shale at https://w w w.usgs.gov/faqs/ howmuch-gas-marcellus-shale?qt-news_science_
products=0#qt-news_science_products . . . . . . . . . . 4

1
INTEREST OF AMICI CURIAE1
The Marcellus Shale Coalition (“MSC”) represents
approximately 150 producers, midstream and pipeline
companies, and local supply -chain companies that
promote the safe and responsible development of
natural gas from the Marcellus and Utica geological
formations located in the Commonwealth. In 2019, the
Commonwealth accounted for 20% of the nation’s natural
gas production and produced more natural gas than any
state except Texas, due predominately to the advent of
“unconventional” development from tight shale formations
like the Marcellus and Utica. MSC members produce
more than 95% of the unconventional natural gas in the
Commonwealth.
The Pennsylvania Independent Oil & Gas Association
(“PIOGA”) is the largest and oldest association representing
oil and natural gas interests in Pennsylvania. PIOGA’ s
nearly 500 members - many of which are family -owned
small businesses - include oil and natural gas producers,
marketers, oil and gas field service companies, engineering
companies, legal and accounting firms, and royalty
owners. PIOGA producer members develop Pennsylvania
crude oil and natural gas reserves from conventional and
unconventional formations located under private and
public lands.
1. No counsel for a party authored this brief in whole or in
part, and no such counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief. No
person other than amicus curiae, its members, or its counsel
made a monetary contribution to its preparation or submission.
The parties have received proper notice of amicus’s intent to file
and all parties have consented to the filing of this brief.

2
The natural gas industry is often referred to as
having three sectors: “Upstream” - the exploration and
production (E&P) companies that drill the wells and
produce the gas; “Midstream” - the companies that
build the pipelines that gather and transport the gas to
market; and, “Downstream” - the end users of the gas,
such as electric power generating plants or LNG facilities.
The MSC and PIOGA both have members in all three
sectors. However, this brief will address the impacts on
the upstream sector of the industry since other entities,
including the Petitioner, will be addressing the direct
impact of the Third Circuit’s decision on the other sectors.
It is axiomatic that companies that drill for and produce
natural gas must rely on pipelines to get that gas to
market. The Third Circuit’s decision, therefore, threatens
the ability of the E&P companies to market their product.
Mindful of the Court’s admonition in Rule 37, we will not
repeat the legal arguments made by Petitioner but do join
in those arguments.
SUMMARY OF ARGUMENT
The decision of the United States Court of Appeals for
the Third Circuit at In re PennEast Pipeline Co. LLC, 938
F.3d 96 (3d Cir 2019), if upheld, will have major negative
impacts on the natural gas industry. Those negative
impacts will occur not only to the portion of the industry
constructing interstate pipelines but will also extend to
the “upstream” companies that drill the wells and produce
the natural gas. Without adequate pipelines to get their
product to market E&P companies will need to curtail
drilling new wells causing a negative impact on jobs and
even on Commonwealth revenues.

3
The vast and varied interests claimed by states in
real estate, both possessory and non-possessory, make
it virtually impossible to route an interstate pipeline
through a state such as Pennsylvania if the state can
prevent a FERC certificate holder from using eminent
domain, if necessary, to acquire state lands along the
route approved by FERC.
A plain reading of the statute indicates that Congress
could not have intended the Natural Gas Act to work in
the manner decided by the Third Circuit.
ARGUMENT
The Third Circuit’s Decision Will Have a
Significant Negative Impact on the Upstream Sector
of the Natural Gas Industry
The decision of the United States Court of Appeals
for the Third Circuit at In re PennEast Pipeline Co. LLC,
938 F.3d 96 (3d Cir 2019) will have major negative impacts
on the natural gas industry and the related economy.
The Third Circuit opinion itself provides the strongest
argument as to why this Honorable Court should grant the
Petition for Writ of Certiorari. The Court recognized “that
our holding may disrupt how the natural gas industry,
which has used the NGA to construct interstate pipelines
over State-owned land for the past eighty years, operates.”
In re PennEast at 113. There can be no doubt that the
decision below will greatly disrupt the construction of
pipelines, as the court predicted. Indeed, another state
bordering Pennsylvania has asserted the same Eleventh
Amendment grounds to block an interstate pipeline. See,
Columbia Gas Transmission, LLC v. .12 Acres of Land,
More or Less, No. 19-cv-01444 (D. Md. Aug. 22, 2019).

4
The disruption, however, will not be limited to pipeline
construction. The disruption will extend to the “upstream”
sector of the industry as well. Without adequate pipeline
capacity E&P companies lack any practical means to
transport t their product to market2. Of more import, most
states do not produce natural gas in significant quantities
and, therefore, interstate pipelines are necessary to
transport gas from the producing states to the consumers
in other states. The natural gas industry in Pennsylvania
produces almost 20% of the nation’s total gas production
and interstate pipelines are essential to getting that
gas to market throughout the country. The U.S. Energy
Information Agency estimates that over 100 trillion cubic
feet of proven gas reserves exist in Pennsylvania and
the U.S. Geologic Survey estimates another 84 trillion
cubic feet of undiscovered but technologically recoverable
natural gas remains in the Marcellus formation. 3
Stranding these valuable natural resources due to a lack of
interstate pipelines would be extremely wasteful and will
harm the MSC and PIOGA companies that seek to produce
that gas and bring it to market. In addition, the collateral
2 . The Petroleum and Hazardous Mater ials Safety
Administration has stated that pipelines are the safest means of
transportation for natural gas. PHMSA estimates that it would
require 750 tanker trucks per day moving out every two minutes
twenty-four hours a day seven days a week to replace a modest
pipeline. Moving this volume by railroad would require 225 tank
cars at 28,00 gallons each. FAQ 6, https://www.phmsa.dot.gov/
faqs/general-pipeline-faqs
3. See, U.S. Crude Oil and Natural Gas Proved Reserves,
Year-end 2018 at https://www.eia.gov/naturalgas/crudeoilreserves/
(Figure 3); USGS How Much Gas is in the Marcellus Shale at
https://www.usgs.gov/faqs/how-much-gas-marcellus-shale?qtnews_science_products=0#qt-news_science_products.

5
impact on jobs and even Commonwealth revenues would
be significant.
The Commonwealth of Pennsylvania collects a fee
for every shale gas well that is “spud” (i.e. drilled) in
the state and continues to collect a fee on that well for a
period of 15 years. See, 58 Pa.C.S. §2302(b). Through 2018,
according to the Pennsylvania Public Utility Commission
which collects the fee, the Commonwealth has collected
$1.4 billion in revenue and has distributed that revenue
to state funds and to local governments.4 A decline in the
drilling of new wells due to inadequate interstate pipeline
capacity will necessarily lead to lesser revenues to the
Commonwealth.
In addition, numerous economic studies have
demonstrated that the natural gas industry supports
a wide range of supporting industries and trades. For
example, a study that examined construction jobs related
to the shale gas industry found that numerous trades,
including boilermakers, operating engineers, electricians,
pipefitters, ironworkers, plumbers, laborers, insulators,
painters, plasterers, masons, carpenters, sheet metal
workers, and teamsters all benefited from a healthy gas
industry. Dr. Robert Bruno & Michael Cornfield, Study
of Construction Employment in Marcellus Shale Related
Oil and Gas Industry 2008-2014 University of Illinois,
August 2014. 5 In addition, a report released by the U.S.
Bureau of Labor Statistics found a significant growth
4. https://w w w.act13 -reporting.puc.pa.gov/ Modules/
PublicReporting/Overview.aspx
5. https:// ler.illinois.edu /w p - content /uploads/2015/01/
Marcellusjobsstudy_FINAL.pdf

6
in jobs and average annual income among gas industry
workers in Pennsylvania. Monthly Labor Review: The
Marcellus Shale gas boom in Pennsylvania: employment
and wage trends.6 All of these jobs and the economic
benefit that flows from them are at risk if industry growth
is constrained due to a lack of interstate pipeline capacity.
The Third Circuit’s Decision Would Make It
Virtually Impossible to Build an Interstate Pipeline
Through Pennsylvania
The potential impact of the Third Circuit’s decision
can be readily seen by looking at the public land holdings in
Pennsylvania, as an example. Although Pennsylvania has
not, at this point, asserted Eleventh Amendment immunity
from eminent domain proceedings brought pursuant to the
NGA, examining the Commonwealth’s interests in land
can be instructive, should such a position be motivated
by the Court’s holding. According to publicly available
information the Commonwealth owns almost 300,000
acres in state parks, 2.2 million acres of state forest lands
in 48 of the 67 counties, and 1.5 million acres of state
game lands, accounting for approximately four million
acres or 6250 square miles.7 Thus more than 13.5% of the
land area of the state8 is owned in fee by Commonwealth
6. https://www.bls.gov/opub/mlr/2014/article/the-marcellusshale-gas-boom-in-pennsylvania.htm
7. https://www.dcnr.pa.gov/StateParks/Pages/default.aspx;
https://www.dcnr.pa.gov/StateForests/Pages/default.aspx; https://
www.pgc.pa.gov/hunttrap/stategamelands/Pages/default.aspx,
respectively.
8. 6250 square miles divided by 46,058 square miles - https://
www.netstate.com/states/geography/pa_geography.htm

7
agencies creating a significant potential obstacle to any
interstate pipeline route crossing through Pennsylvania.
Those four million acres account for only the lands in
which the Commonwealth has a possessory interest and
omits lands on which it or a political subdivision of the
Commonwealth may hold an agricultural preservation
or conservation easement under various conservation
statutes. For example, the Pennsylvania Land Trust
Association reports that an additional 4 million acres are
enrolled in Agricultural Security Areas. 9 The Court’s
opinion is not clear on the exact interest that must be
held by a state but similar non-possessory interests held
by the State of New Jersey were assumed to be adequate
to invoke Eleventh Amendment immunity.
In fact, the Commonwealth takes a view of its
ownership of the land under certain stream beds that
would greatly increase the obstacles to construction of
a pipeline were Pennsylvania follow the Third Circuit’s
lead. Generally, states, in their capacity as sovereigns,
hold title to the beds under navigable waters, whether
navigable in law or in fact. See, PPL Montana v. Montana,
565 U.S. 576, 590 (2012); Leaf v. Pennsylvania Co., 112 A.
243, 244 (PA 1920). However, Pennsylvania has recently
taken a more expansive view of its stream bed ownership,
claiming ownership of beds beneath every stream that the
Pennsylvania General Assembly has ever designated as
a public highway, regardless of their navigability in fact
and thereby challenging the private ownership rights
of riparian landowners. See, Shale Gas Development
Beneath Publicly-Owned Streambeds.10 While many
9. https://conservationtools.org/guides/49
10. https://www.dcnr.pa.gov/Business/StreambedGasLeasing/
Pages/default.aspx

8
individuals and organizations, including the MSC and
PIOGA, disagree with the Commonwealth’s position, it is
instructive to see the significant swaths of Pennsylvania
that could be barred from pipeline infrastructure
development if Pennsylvania were to adopt the position
taken by New Jersey and Maryland. The Pennsylvania
Department of Conservation and Natural Resources has
produced a map illustrating the stream beds to which
it claims ownership. See, Publicly Owned Streambeds,
Draft Map 02/28/2012.11 One need only look at that map to
see the impossibility of constructing an interstate pipeline
through Pennsylvania should the Third Circuit’s decision
be upheld.
A Plain Reading of the Statute Indicates That
Congress Could Not Have Intended the Result
Reached by the Third Circuit
Although the MSC and PIOGA will not repeat the
arguments of the Petitioner, one point seems apparent.
A plain reading of the statute in question would suggest
that the Third Circuit strained to avoid the obvious. 15
U.S.C. §717f(h) provides in relevant part:
When any holder of a certificate of public
convenience and necessity cannot acquire by
contract, or is unable to agree with the owner
of property to the compensation to be paid
for, the necessary right-of-way to construct,
operate, and maintain a pipe line or pipe lines
for the transportation of natural gas, and the
11. The map can be viewed at: http://www.docs.dcnr.pa.gov/
cs/groups/public/documents/document/dcnr_009716.pdf.

9
necessary land or other property, in addition
to right-of-way, for the location of compressor
stations, pressure apparatus, or other stations
or equipment necessary to the proper operation
of such pipe line or pipe lines, it may acquire
the same by the exercise of the right of eminent
domain in the district court of the United States
for the district in which such property may be
located, or in the State courts.
It should be presumed that Congress did not intent
an absurd result when enacting a statute. Moreover,
the courts should avoid interpretations that produce
absurd results or thwart the intent of Congress. See,
United States v. Turkette, 452 U.S. 576, 580 (1981);
Commissioners v. Brown, 380 U.S. 563, 571 (1965). As
the examples noted above illustrate, given the extensive
possessory and non-possessory interests in real estate
claimed by the states, Congress must have intended to
delegate the federal government’s power to condemn state
property. Otherwise, it would have created a very odd if
not absurd situation. Congress would have established
a complex process, under the NGA, for the review and
approval of the routing of interstate pipelines only to allow
states to undo that process by claiming that their large
land holdings and even larger non-possessory interests
could not be acquired by eminent domain. To construe
the NGA in such a manner would be to produce an absurd
result and thwart the intent of Congress.

10
CONCLUSION
For the reasons set forth above the Marcellus Shale
Coalition and the Pennsylvania Independent Oil and Gas
Association join Petitioner’s request.
Respectflly submitted,
Terry R. Bossert
Counsel of Record
General Counsel
Marcellus Shale Coalition
300 North Second Street,
Suite 1102
Harrisburg, Pennsylvania 17101
(717) 603-0714
tbossert@marcelluscoalition.org
- and Kevin Jon Moody
Pennsylvania Independent
Oil & Gas A ssociation
212 Locust Street,
Suite 300
Harrisburg, Pennsylvania 17101
(717) 234-8525
Counsel for Amici Curiae
Marcellus Shale Coalition and
Pennsylvania Independent Oil &
Gas Association

